         Major Management Challenges 

   Facing the Department of Homeland Security 





OIG-11-11                  November 2010
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                      November 10, 2010


                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

The attached report presents our FY 2010 assessment of the major management challenges
facing the Department of Homeland Security. As required by the Reports Consolidation Act of
2000 (Public Law 106-531), we update our assessment of management challenges annually.

We trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner           

                                      Inspector General        

                                                                     Office of Inspector General

                                                                     U.S. Department of Homeland Security
                                                                     Washington, DC 20528




Major Management Challenges Facing the Department of
               Homeland Security

In the aftermath of the terrorist attacks against America on September 11th, 2001, the
Department of Homeland Security (DHS) was formed from 22 disparate domestic agencies.
The creation of DHS represented one of the largest and most complex restructurings in the
federal government. The Department of Homeland Security performs a broad range of
activities across a single driving mission to secure America from the entire range of threats
that we face.

Since its inception, the department has taken aggressive measures to secure our nation's
borders, reform our nation’s immigration laws, and take on the shared responsibility to make
our country more ready and resilient in the face of a terrorist threat or a natural disaster.
Although the department has taken steps to become “One DHS”; much remains to be done to
establish a cohesive, efficient, and effective organization.

The major management challenges we identify facing DHS, including department-wide and
operational challenges, are a major factor in setting our priorities for audits, inspections, and
evaluations of DHS’ programs and operations. As required by the Reports Consolidation Act
of 2000, Pub.L.No. 106-531, we update our assessment of management challenges annually.
We have made recommendations in many, but not all, of these areas as a result of our
reviews and audits of departmental operations. Where applicable, we have footnoted specific
reports that require DHS’ action.

We have identified the following major management challenges:
      • Acquisition Management
      • Information Technology Management
      • Emergency Management
      • Grants Management
      • Financial Management
      • Infrastructure Protection
      • Border Security
      • Transportation Security
      • Trade Operations and Security

                                                                                                       1
                Major Management Challenges Facing the Department of Homeland Security
Since the major management challenges have tended to remain the same from year to year,
we developed scorecards to distinguish the department’s progress in selected areas. This
report features scorecards for acquisition management, information technology management,
emergency management, grants management, and financial management.

We based the ratings on a four-tiered scale ranging from limited to substantial progress:

       Limited                 Modest                   Moderate                 Substantial




   •   Limited: While there may be plans to address critical success factors, few if any
       have been implemented;
   •   Modest: While some improvements have been made, many of the critical success
       factors have not yet been achieved;
   •   Moderate: Many of the critical success factors have been achieved; and
   •   Substantial: Most or all of the critical success factors have been achieved.

These five scorecards are summarized in Figure 1 and incorporated in our discussion of the
major management challenges.

Figure 1.

                                                     FY 2009                  FY 2010
                                              Moderate Progress        Moderate Progress

 Acquisition Management

                                              Moderate Progress        Moderate Progress

 Information Technology
 Management

                                              Moderate Progress        Moderate Progress

 Emergency Management

                                              Modest Progress          Modest Progress

 Grants Management


                                                                                               1
               Major Management Challenges Facing the Department of Homeland Security
                                                      FY 2009                  FY 2010
                                                                        Modest Progress
                                                Modest Progress
 Financial Management



ACQUISITION MANAGEMENT
DHS relies on contractor support to fulfill its critical mission needs. An effective acquisition
management infrastructure is vital to achieve DHS’ overall mission. It requires a sound
management infrastructure to oversee the complex and large dollar procurements. It must
identify mission needs; develop strategies to fulfill those needs while balancing cost,
schedule, and performance; and ensure that contract terms are satisfactorily met.

A successful acquisition process depends on the following key factors:
   •	 Organizational Alignment and Leadership—ensures appropriate placement of the
      acquisition function, defines and integrates roles and responsibilities, and maintains
      clear, strong executive leadership;
   •	 Policies and Processes—partnering with internal organizations, effective use of
      project management approaches, and establishment of effective internal controls;
   •	 Acquisition Workforce—commitment to human capital management, integration and
      alignment of human capital approaches with organizational goals, and investment in
      people; and
   •	 Knowledge Management and Information Systems—tracking of key acquisition data,
      analysis of supplies and services spending, and data stewardship.

Acquisition Management Scorecard

The following scorecard illustrates areas where DHS improved its acquisition management
practices, as well as areas where it continues to face challenges. We based our assessment on
our recent audit reports, GAO reports, congressional testimony, and our broader knowledge
of the acquisition function.

Based on the consolidated result of the four acquisition management capability areas, DHS
made “moderate” overall progress in the area of Acquisition Management.




                                                                                               2
                Major Management Challenges Facing the Department of Homeland Security
               ACQUISITION MANAGEMENT SCORECARD
                                                                 Modest Progress

Organizational Alignment and Leadership

In both FY 2010 and FY 2009 DHS made “modest” progress in improving the acquisition
program’s organizational alignment and defining roles and responsibilities. This rating
remains unchanged because the department continues to depend on a system of dual
accountability and collaboration between the chief procurement officer and the
component heads, which may sometimes create ambiguity about who is accountable for
acquisition decisions. However, DHS maintains that the dual authority model works
because the Office of the Chief Procurement Officer (OCPO) retains central authority
over all contracting through its contracting officer warrant program and Federal
Acquisition Certification - Contracting program. According to the department, the heads
of contracting activities and contracting officers function independently of component
influence as their authority flows from OCPO rather than the component. DHS’
Acquisition Line of Business Integration and Management Directive sets forth existing
authorities and relationships within individual components and the department’s Chief
Procurement Officer.
According to the GAO) 1 DHS has not effectively implemented or adhered to its
investment review process, which requires executive decision making at key points in an
investment’s life cycle. In January of this year, the department published Acquisition
Management Directive 102-01. The directive provides policy guidance to identify and
track new and ongoing major investments and involves senior management in the
investment review process by way of departmental oversight board reviews.
The department’s OCPO has made progress in its efforts to improve oversight of
contracting activities by conducting reviews and issuing memoranda to component Heads
of Contracting Activities (HCA). Specifically, between June 2007 and June 2010, OCPO
conducted baseline oversight reviews of component procurement activities and provided
each of the eight component HCAs with a report containing recommendations specific to
their components. These reviews measured component compliance with applicable
Federal regulations, departmental regulations, departmental acquisition manuals, policies,
and guidance, and also established a baseline of issues and concerns for future on-site
reviews. The reviews focused on major areas consistent with the framework for
previously identified management challenges, such as organizational alignment,
procurement management, human capital, knowledge and information management, and
financial accountability.




1
 GAO-09-29, Department of Homeland Security: Billions Invested in Major Programs Lack Appropriate
Oversight, November 2008.
                                                                                                    3
                 Major Management Challenges Facing the Department of Homeland Security
                ACQUISITION MANAGEMENT SCORECARD

Additionally, on March 2, 2010, OCPO issued a special review of contracts awarded
noncompetitively. 2 This report contained recommendations to HCAs for opportunities to
improve the availability and accessibility of contract files; accurately code contract file
information in the Federal Procurement Data System (FPDS); properly cite the authority
to award a contract noncompetitively; and ensure that adequate rationale exists to support
justifications and approvals.


                                                                   Moderate Progress

Policies and Processes

DHS made “moderate” progress in developing and strengthening acquisition
management policies and processes. For example, OCPO has updated the Homeland
Security Acquisition Manual (HSAM) to improve the level of guidance provided to
component HCAs. OCPO issued revisions to the HSAM that included a guide to
components in conducting market research. 3 Additionally, OCPO plans to amend the
HSAM to require that acquisition personnel include Advanced Acquisition Plan numbers in
procurement files, when applicable. 4 The department also effectively conveyed critical
information through the issuance of acquisition alerts to HCAs. During this fiscal year,
OCPO distributed a DHS acquisition alert containing critical changes in reporting
requirements for specific data elements in FPDS and another acquisition alert to
familiarize HCAs with changes to competition information in FPDS. 5 Although the
department has taken steps towards improving its processes and controls over awarding,
managing, and monitoring contract funds, we continue to identify problems in the
acquisition area.


2
  DHS-OCPO, CPO Special Procurement Oversight Review of Noncompetitive Contracts (Report No. 10-001-
S, March 2, 2010).
3
  DHS-Homeland Security Acquisition Manual, Revisions to HSAM Chapters 3003, 3005, 3009, and Related
Appendices (HSAM Notice 2010-02, December 16, 2009).
4
  DHS-OIG, DHS Contracts Awarded Through Other Than Full and Open Competition During Fiscal Year
2009 (OIG-10-55, February 2010).
5
  DHS-OCPO, Version 1.4 Changes in the Federal Procurement Data System Next Generation (DHS
Acquisition Alert 10/09, Amendment 1, March 25, 2010); DHS-OCPO, Changes to Reporting of Competition
Information in the Federal Procurement Data System-Next Generation, October 29, 2009.
6
  An award fee is an amount of money that a contractor may earn in whole or in part by meeting or exceeding
subjective criteria stated in an award fee plan.
7
  DHS-OIG, Internal Controls in the FEMA Disaster Acquisition Process, (OIG-09-32, February 2009); DHS-
OIG, Challenges Facing FEMA's Disaster Contract Management, (OIG-09-70, May 2009); DHS-OIG, FEMA's
Acquisition of Two Warehouses to Support Hurricane Katrina Response Operations, (OIG-09-77, June 2009);
DHS-OIG, FEMA's Temporary Housing Unit Program and Storage Site Management, (OIG-09-85, June 2009).
8
  GAO-09-630, Federal Contracting: Guidance on Award Fees Has Led to Better Practices but is Not
Consistently Applied, May 2009.
                                                                                                         4
                 Major Management Challenges Facing the Department of Homeland Security
                ACQUISITION MANAGEMENT SCORECARD
As reported last year, DHS has not developed methods for evaluating the effectiveness of
an award fee 6 as a tool for improving contractor performance, and Federal Emergency
Management Agency (FEMA) needs to accelerate its planned acquisition process
improvements for awarding, managing, monitoring, tracking, and closing-out contracts. 7
In May 2009, GAO 8 reported that DHS provided guidance on award fees in its
acquisition manual, but individual contracting offices developed their own approaches to
executing award fee contracts that were not always consistent with the principles in the
Office of Management and Budget’s guidance on award fees or among offices within
DHS.
                                                                   Moderate Progress

Acquisition Workforce

Although DHS made “moderate” progress in recruiting and retaining a workforce
capable of managing a complex acquisition program, it continues to face workforce
challenges across the department. A January 2010 report by the GAO indicated that as of
April 2010, the Coast Guard filled 760 of its 951 military and civilian personnel positions
in its acquisition branch. 9 The Coast Guard received 100 additional acquisition positions
for FY10 and intends to allocate twenty-five percent of these positions to the Offshore
Patrol Cutter acquisition program. The Coast Guard is using contractors to fill its
acquisition personnel gap and according to GAO, the Coast Guard is mitigating the
potential for conflicts of interest and support of inherently governmental functions by
releasing guidance to define inherently governmental roles and the role of Coast Guard
personnel in contractor oversight.

FEMA has improved acquisition training and greatly increased the number of acquisition
staff, but needs to better prepare its acquisition workforce for catastrophic disasters. 10
Further, although FEMA continues to receive additional authorized acquisition staff
positions, it has difficulty filling the positions due to the limited number of people with
the needed skill set and the fierce competition across federal agencies for skilled
acquisition personnel.

Over the past few years, DHS has centralized recruitment and hiring of
acquisition personnel, established the Acquisition Professional Career Program
to hire and mentor procurement interns, created a tuition assistance program,
and structured rotational and development work assignments. 11 Although these
are very positive steps, it will, in all likelihood, take years before the department has a
fully staffed and fully skilled acquisition workforce.


9
  GAO-10-268R, Coast Guard: Service Has Taken Steps to Address historic Personnel Problems, but It is too 

Soon to Assess the Impact of These Efforts, January 2010. 

10
   DHS-OIG, Challenges Facing FEMA's Acquisition Workforce, (OIG-09-11, November 2008).

11
   Department of Homeland Security FY 2008 Annual Financial Report.

                                                                                                          5
                  Major Management Challenges Facing the Department of Homeland Security
                ACQUISITION MANAGEMENT SCORECARD
                                                                   Modest Progress
Knowledge Management and Information
Systems
DHS has made “modest” progress in deploying an enterprise acquisition information
system and tracking key acquisition data, however it has not fully deployed a department-
wide (enterprise) contract management system that interfaces with the financial system.
Many procurement offices continue to operate using legacy systems that do not interface
with financial systems. With ten procurement offices and more than $17 billion in annual
acquisitions and procurement, DHS needs a consolidated acquisition system to improve
data integrity, reporting, performance measurement, and financial accountability.

DHS needs to strengthen its controls for developing and implementing its systems
consolidation project. The DHS Chief Financial Officer has initiated the Transformation
and Systems Consolidation project to acquire an integrated financial, acquisition, and
asset management solution for DHS. However, we reported in July 2010 that this project
faces challenges because DHS does not have the necessary planning documents in place
and approval for this effort; total life cycle cost estimates are not inclusive of all project
costs; and staffing projections have not been finalized. 12 Additionally, DHS’ Office of
Chief Information Officer has had limited involvement with the overall initiative, which
increases the risk that the DHS Enterprise Architecture and security requirements may
not be incorporated into the new system.

The department has made moderate progress to improve the accuracy and completeness
of contract data in FPDS-NG. 13 This system is the only consolidated information source
for analyzing competition on procurements and is relied on for reporting to the public and
Congress. This year, we reviewed the integrity of reported acquisition data in FPDS-NG
and found that, although errors were detected in the data we sampled, the system earned a
94.5 % accuracy rate. 14

Additional initiatives the department reports as being underway in the acquisition area
include piloting the Procurement Enterprise Reporting Application (ERA) that will
provide near real-time access to procurement data allowing for the consolidation,
analysis, and review of the data from the disparate contract writing systems that will
interface with the Federal Procurement Data System-Next Generation (FPDS-NG). User
acceptance and data validation exercises are scheduled for October 2010 and the system
is expected to be fully operational by January 2011. Also, OCPO outlined additional

12
   DHS-OIG, DHS Needs to Address Challenges to Its Financial Systems Consolidation Initiative, (OIG-10-95,

July 2010)

13
   DHS-OIG, DHS Contracts Awarded Through Other Than Full and Open Competition during Fiscal Year

2007, (OIG-09-94, August 2009). 

14
   DHS-OIG, Department of Homeland Security’s Acquisition Data Management Systems, (OIG-10-42, January

2010). 

                                                                                                         6
                 Major Management Challenges Facing the Department of Homeland Security
              ACQUISITION MANAGEMENT SCORECARD
steps to ensure continued improvement in data accuracy that include developing training
focused on preventing errors, increasing participation in the DHS FPDS working group
aimed at improving the accuracy of data input in FPDS, and distributing 56 “data flags”
to alert HCAs in identifying and correcting errors in FPDS data.



INFORMATION TECHNOLOGY MANAGEMENT

Creating a unified information technology infrastructure for effective integration and agency-
wide management of IT assets and programs remains a challenge for the DHS Chief
Information Officer (CIO). The CIO’s successful management of IT across the department
will require the implementation of strong IT security controls, coordination of planning and
investment activities across DHS components, and a commitment to ensuring privacy.

Security of IT Infrastructure.

During our FY 2008 Federal Information Security Management Act 15 (FISMA) evaluation,
we reported that the department continued to improve and strengthen its security program.
Specifically, the department implemented a performance plan to improve on four key areas:
Plan of Action and Milestones weaknesses remediation, quality of certification and
accreditation, annual testing and validation, and security program oversight. The department
also finalized its Sensitive Compartmented Information Systems Information Assurance
Handbook, which provides department intelligence personnel with security procedures and
requirements to administer its intelligence systems and the information processed.

Although the department’s efforts have resulted in some improvements, components are still
not executing all of the department’s policies, procedures, and practices. Management
oversight of the components’ implementation of the department’s policies and procedures
needs improvement in order for the department to ensure that all information security
weaknesses are tracked and remediated, and to enhance the quality of system certification
and accreditation.

In July 2010 we reported that 5 components maintained 11 external network connections to
other agency’s human resources systems that are outside of the DHS trusted internet
connections (TIC)16. When components are allowed to maintain their own network
connections to other federal agencies it increases the number of internet points of presence.
This is contradictory to Office of Management and Budget’s TIC and DHS OneNet
initiatives to improve efficiency and security by reducing the internet points of presence and
may pose a security risk to DHS’ data if security controls implemented are inadequate.
15
  Title III of the E-Government Act of 2002, Public Law 107-347. 

16
  DHS-OIG, Management Oversight and Component Participation Are Necessary to Complete DHS’ Human 

Resource Systems Consolidation Effort, (OIG-10-99, July 2010)

                                                                                                 7
                Major Management Challenges Facing the Department of Homeland Security
IT Management
Some DHS components face challenges when planning for and managing information
technology to support DHS’ mission. For example, Immigrations and Customs Enforcement
(ICE) implemented an Office of the Chief Information Officer (OCIO) organizational
strategic plan but did not define key goals and objectives for fulfilling its mission
responsibilities. The ICE OCIO also has oversight of information technology spending, but
its budget planning process did not capture all component information technology needs. In
addition, we reported in July 2010 that DHS has made progress in consolidating its human
resource systems.17 However, DHS faces additional challenges with implementing all of the
enterprise-wide human resource solutions because many of the components are reluctant to
adopt the department’s enterprise-wide solutions.

Staffing shortages have also made it difficult for some DHS component CIOs to provide
effective IT planning and management oversight. For example, ICE did not have the
requisite staff to finalize its IT Strategic Plan. As a result ICE was not able to communicate
its IT strategic goals and objectives to its stakeholders, create a formal process to facilitate IT
policy development, approval, and dissemination, or establish an agency-wide IT budget
process to include all ICE component office technology initiatives and requirements. In
addition, the U.S. Citizenship and Immigration Services (USCIS) OCIO found it difficult to
update its IT transformation approach, strategy, or plan. Without the necessary staff, USCIS
OCIO was unable to document the results and lessons learned from the pilot and proof-of-
concept programs that support its IT transformation program.

The department faces significant challenges as it attempts to create a unified IT infrastructure
for effective integration and agency-wide management of IT assets and programs. To
address these challenges, DHS has several initiatives underway to improve IT operations and
reduce costs. One such program is to develop an enterprise-wide IT disaster recovery
program to ensure that the department’s operations can continue uninterrupted should its IT
systems fail. A second related program is DHS’ effort to consolidate its various data centers
into two enterprise data centers. We reported in April 2009 that DHS had made progress in
these two areas by allocating funds to establish the new data centers. 18 However, we noted
that more work was needed to ensure the new data centers were fully capable of meeting the
department’s significant IT disaster recovery needs. We also reported in September 2010,
the DHS should undertake additional steps to successfully migrate its systems to these
enterprise data centers. 19

Privacy
DHS continues to face challenges to ensure that uniform privacy procedures and controls are
properly addressed and integrated protections are implemented throughout the lifecycle of
each process, program, and information system. For example, the implementation of

17
   DHS-OIG, Management Oversight and Component Participation Are Necessary to Complete DHS’ Human 

Resource Systems Consolidation Effort, (OIG-10-99, July 2010) 

18
   DHS-OIG, DHS’ Progress in Disaster Recovery Planning for Information Systems (OIG-09-60, April 2009). 

19
   DHS-OIG, Management of DHS’ Data Center Consolidation Initiative Needs Improvement, (OIG-10-120, 

September 2010). 

                                                                                                        8
                 Major Management Challenges Facing the Department of Homeland Security
Homeland Security Presidential Directive -12, Policy for a Common Identification Standard
for Federal Employees and Contractors, was especially challenging. The department was
required to grant the necessary security rights and privileges to users so they could access the
department’s facilities and networks, but still had to protect the confidentiality and privacy of
its users and data. 20

In July 2010, we reported that ICE demonstrated an organizational commitment to privacy
compliance by appointing a privacy officer and establishing the ICE Privacy Office. 21
However, we identified areas for improvement. Specifically, to strengthen its privacy
stewardship ICE needed to develop and implement job-related privacy training and oversight
to safeguard PII in program operations and establish penalties for violations that correspond
with DHS privacy rules of conduct.

IT Management Scorecard

The following scorecard demonstrates where DHS’ IT management functions have been
strengthened. This high-level assessment identifies progress in six IT management capability
areas: IT budget oversight, IT strategic planning, enterprise architecture, portfolio
management, capital planning and investment control, and IT security. These six elements
were selected based on IT management capabilities required by federal and DHS guidelines
for enabling CIOs to manage IT department-wide.

Based on the consolidated result of the six IT management capability areas, DHS has made
“moderate” progress in IT Management overall.


                          IT MANAGEMENT SCORECARD
                                                                  Modest Progress
IT Budget Oversight: ensures visibility into IT
spending and alignment with the strategic IT direction.


The DHS CIO has made improvements in managing department-wide IT budgets in
accordance with the Clinger-Cohen Act 22 and the department’s mission and policy
guidance. The DHS 2009-2013 IT Strategic Plan emphases the importance of Component
IT spending approval by either the Component-level CIO or the DHS CIO. However,
gaining a department-wide view of IT spending was difficult due to some Component
CIOs not having sufficient budget control and insight. For example, our 2010 report 23 on
the U.S. Immigration and Customs Enforcement found that although the Office of the

20
   DHS-OIG, Resource and Security Issues Hinder DHS' Implementation of Homeland Security Presidential

Directive 12 (OIG-10-40, January 2010).

21
   DHS-OIG, Immigration and Customs Enforcement Privacy Stewardship (OIG-10-100, July 2010).

22
   Clinger-Cohen Act of 1996, Public Law 104-106, Division E, February 10, 1996. 

23
   DHS-OIG, Immigration and Customs Enforcement Information Technology Management Progresses But

Challenges Remain, (OIG-10-90, May 2010). 

                                                                                                         9
                 Major Management Challenges Facing the Department of Homeland Security
                         IT MANAGEMENT SCORECARD
Chief Information Officer has oversight of information technology spending, its budget
planning process did not capture all component information technology needs. As a result,
the OCIO has limited ability to proactively manage and administer all IT resources and
assets. Due to the limited benefits realized, IT Budget Oversight has made “modest”
progress.
                                                           Moderate Progress
IT Strategic Planning: helps align the IT
organization to support mission and business priorities.


An effective IT strategic plan establishes an approach to align resources and provides a
basis for articulating how the IT organization will develop and deliver capabilities to
support mission and business priorities. In January 2009, the department finalized its IT
Strategic Plan, which aligns IT goals with overall DHS strategic goals. The plan also
identifies technology strengths, weaknesses, opportunities, and threats. Due to the
finalization and communication of the DHS IT Strategic Plan and plans to align IT with the
department’s goals, this area has made “moderate” progress.
                                                            Moderate Progress
Enterprise Architecture: functions as a blueprint
to guide IT investments for the organization.


The Clinger-Cohen Act requires that CIOs develop and implement an integrated IT
architecture for the agency to avoid the risk that systems will be duplicative, not well
integrated, and limited in optimizing mission performance. The DHS IT Strategic Plan
identifies a performance measure for the percentage of IT investments reviewed and
approved through the Enterprise Architecture Board. This should further promote and
enforce alignment of IT investments across the department. The department has shown
“moderate” progress in implementing its enterprise architecture.
                                                            Modest Progress
Portfolio Management: improves leadership’s
ability to understand interrelationships between IT
investments and department priorities and goals.

The DHS OCIO has made “Modest” progress in establishing the department’s portfolio
management capabilities as instructed by OMB Circular A-130. 24 The DHS portfolio
management program aims to group related IT investments into defined capability areas to
support strategic goals and missions. Portfolio management improves leadership’s
visibility into relationships among IT assets and department mission and goals across

24
  Office of Management and Budget Circular A-130, Transmittal 4, Management of Federal Information
Resources, November 2000.
                                                                                                     10
                 Major Management Challenges Facing the Department of Homeland Security
                            IT MANAGEMENT SCORECARD
organizational boundaries.

The DHS IT Strategic Plan identifies a goal to effectively manage IT capabilities and
implement cross-departmental IT portfolios that enhance mission and business
performance. Although progress is being made, the department has not identified fully
opportunities to standardize, consolidate, and optimize the IT infrastructure. Based on the
limited benefits realized, the department has shown “modest” progress in implementing
department-wide portfolio management.
                                                            Moderate Progress
Capital Planning and Investment Control:
improves the allocation of resources to benefit the
strategic needs of the department.

The Clinger-Cohen Act requires that departments and agencies create a capital planning
and investment control (CPIC) process to manage the risk and maximize the value of IT
acquisitions. The CPIC process is intended to improve the allocation of resources to
benefit the strategic needs of the department. As part of the CPIC process, agencies are
required to submit business plans for IT investments to OMB demonstrating adequate
planning.

To address this requirement, DHS’ IT Strategic Plan communicated the importance of
following the IT investment guidance provided by DHS management directive 0007.1. 25
This directive supports and expands on the Act’s requirement for technology, budget,
financial, and program management decisions. The department has made “moderate”
progress with respect to allocation of resources to benefit its strategic needs.
                                                             Moderate Progress
IT Security: ensures protection that is commensurate
with the harm that would result from unauthorized
access to information.

DHS IT security is rated at “moderate,” for progress made during the last 4 years in
compliance with FISMA. OMB Circular A-130 requires agencies to provide protection
that is commensurate with the risk and magnitude of the harm that would result from
unauthorized access to information and systems assets or their loss, misuse, or
modification. Regarding intelligence systems, information security procedures have been
documented and controls have been implemented, providing an effective level of systems
security.




25
     DHS Management Directive 0007.1: Information Technology Integration and Management March 2007.
                                                                                                      11
                   Major Management Challenges Facing the Department of Homeland Security
EMERGENCY MANAGEMENT

FEMA’s mission is to support citizens and first responders to ensure that as a nation we work
together to build, sustain, and improve our capability to prepare for, protect against, respond
to, recover from, and mitigate all hazards. The Post-Katrina Emergency Management
Reform Act of 2006 (Post-Katrina Reform Act), 26 enacted to address shortcomings exposed
by Hurricane Katrina, expanded the scope of the agency’s mission, enhanced FEMA’s
authority, and gave it primary responsibility for the four phases of comprehensive emergency
management: preparedness, response, recovery, and mitigation.
In March 2008, we released a report on FEMA’s progress in addressing nine key
preparedness areas related to catastrophic disasters: overall planning, coordination and
support, interoperable communications, logistics, evacuations, housing, disaster workforce,
mission assignments, and acquisition management. 27 FEMA’s progress in these areas ranged
from limited to moderate. In August 2010, we issued an update of our assessment and
determined that FEMA has moved beyond limited progress in all areas, achieved modest
progress in 2 areas, moderate progress in 7 areas, and substantial progress in 1 area
(Mitigation was added as an additional key area).28

In our FY2010 reports, we continued our focus on FEMA’s logistics systems, contracting
practices, processes and procedures for individual and public assistance, and mitigation
efforts.

Emergency Management

The following scorecard highlights FEMA’s progress in three key areas: logistics, housing,
and mitigation.

Based on the consolidated result of the three areas presented here, as well as progress made
in acquisition management and disaster grants management, FEMA has made “moderate”
progress in the area of Emergency Management.


               EMERGENCY MANAGEMENT SCORECARD
                                                                 Moderate Progress

Logistics

When disaster strikes, FEMA must be prepared to quickly provide goods and services to
help state and local governments respond to the disaster. FEMA’s response in past

26
   Public Law 109-295, Title VI – National Emergency Management, of the Department of Homeland Security
Appropriations Act of 2007.
27
   DHS-OIG, FEMA’s Preparedness for the Next Catastrophic Disaster, (OIG-08-34, March 2008).
28
   DHS-OIG, FEMA’s Preparedness for the Next Catastrophic Disaster – An Update, (OIG-10-123, September
2010).
                                                                                                     12
                 Major Management Challenges Facing the Department of Homeland Security
               EMERGENCY MANAGEMENT SCORECARD
disasters has demonstrated that when this function is lacking, disaster survivors face
increased suffering. As a result of a congressionally mandated reorganization in 2007,
FEMA created the Logistics Management Directorate, now within Response and
Recovery. Beyond the structural reorganization, FEMA has been proactive in logistical
improvements; however, more remains to be done. 29

FEMA has made great strides to improve its logistics capability by: (1) increasing
staffing levels; (2) training and developing personnel; (3) enhancing coordination among
federal, state, and local governments, nongovernmental organizations, and the private
sector; (4) developing plans and exercises to improve readiness; (5) utilizing interagency
agreements and contracts for needed commodities; (6) conducting meetings and
teleconferences with logistics partners; and (7) reviewing and evaluating performance.

Despite FEMA’s progress, corresponding improvements by many state and local
governments have lagged behind due to staffing and budget restrictions. FEMA’s
logistics function is also hampered by the inability of its information systems to
communicate directly with the systems of its federal partners. FEMA has several
information systems it uses in its logistics function; which can lead to stovepipes and
slow down response time. FEMA plans to have its systems interconnected by the end of
the logistics transformation that is projected to be complete in 2014.


                                                                 Moderate Progress

Housing

Since 2009, FEMA has made moderate progress in its disaster housing plans and
operations. These improvements include progress in implementing the National Disaster
Housing Strategy; 30 planning for the purchase, tracking and disposal of temporary
housing units; and strengthening state and local commitment to house affected disaster
survivors. FEMA has reorganized its Individual Assistance Division to address these
action areas.

In January 2009, FEMA released the National Disaster Housing Strategy, which
summarized FEMA’s disaster housing process, including sheltering and housing
capabilities, principles and policies. The Strategy has several components
including the creation of a National Disaster Housing Task Force; the
development of a Disaster Housing Implementation Plan; and a Comprehensive
Concept of Operations. On March 16, 2010, the Office of Management and

29
   DHS-OIG, FEMA’s Logistics Management Process for Responding to Catastrophic Disaster, (OIG-10-101, 

July 2010). 

30
   FEMA’s National Disaster Housing Strategy can be accessed at 

http://www fema.gov/pdf/emergency/disasterhousing/NDHS-core.pdf. 

                                                                                                    13
                 Major Management Challenges Facing the Department of Homeland Security
              EMERGENCY MANAGEMENT SCORECARD
Budget approved the Disaster Housing Implementation Plan. FEMA plans to
release the Comprehensive Concept of Operations immediately following the
release of the National Disaster Recovery Framework. FEMA developed a Non-
Congregate Housing Program that uses hotels, motels or federally-owned
unoccupied housing units as a sheltering resource. However, the program’s
success depends on leveraging the full capabilities of the federal government,
state and local governments, the private sector, members of the community, and
disaster survivors.

In March 2009, FEMA testified that it would consider the use of travel trailers
only as a last resort when a state specifically requests them. In light of that
decision, FEMA continues working to develop alternative forms of temporary
housing. FEMA is working on separate projects with the Department of Housing
and Urban Development (HUD) and seven alternative housing manufacturers to
develop these housing units. This year, FEMA began an effort to sell more than
101,000 excess temporary housing units through whole-storage site sales
conducted by the U.S. General Services Administration (GSA) online auctions.
When the auctions closed in January 2010, FEMA had sold most of its excess
inventory. The purchasers are in the process of removing the housing units, and
FEMA anticipates that all storage sites will be closed by the end of FY 2011.

FEMA has developed two approaches to strengthen how state and local
governments assist disaster survivors with temporary housing. The first approach
is the development of state disaster housing taskforces, which are State entities
that are assisted by FEMA to develop best practices, operational guidance and a
standardized housing plan for unique disaster housing needs. The second
approach is to work with state and local governments to identify temporary group
housing sites. However, each approach has specific limitations, such as
insufficient numbers of experienced disaster housing staff, limited federal and
state funding, and poor coordination with state and local governments.

In addition to these areas, we are concerned that FEMA has not clearly defined its roles
and responsibilities with regard to the long-term housing needs of disaster survivors (i.e.,
beyond the standard 18 months of assistance).
                                                                Moderate Progress

Mitigation

Hazard mitigation is a strategic component of our nation’s integrated approach to
emergency management. Mitigation provides a critical foundation to reduce loss of life
and property by closing vulnerabilities and avoiding or lessening the impact of a disaster,
leading to safer, more resilient communities. As noted in the 2010 Quadrennial
Homeland Security Review Report,

                                                                                               14
                Major Management Challenges Facing the Department of Homeland Security
                   EMERGENCY MANAGEMENT SCORECARD

           “…the strategic aims and objectives for ensuring resilience to disasters are
           grounded in the four traditional elements of emergency management: hazard
           mitigation, enhanced preparedness, effective emergency response, and rapid
           recovery. Together, these elements will help create a Nation that understands the
           hazards and risks we face, is prepared for disasters, and can withstand and
           rapidly and effectively recover from the disruptions they cause.”

Although FEMA continues to improve its capacity and capability to lead an integrated
national approach to hazard mitigation, there are a number of strategic and operational
challenges that must be addressed in the years ahead. These challenges will require a
focused and systematic effort by key mitigation partners and stakeholders at the federal,
state, and local levels.

Challenge: Develop integrated national hazard mitigation strategy

The FY 2010 Quadrennial Homeland Security Review defines broad national objectives
for mitigation:

       •   Reduce the vulnerability of individuals and families: Improve individual and
           family capacity to reduce vulnerabilities and withstand disasters.

       •   Mitigate risks to communities: Improve community capacity to withstand
           disasters by mitigating known and anticipated hazards.

The challenge for FEMA is to translate these objectives into an integrated national hazard
mitigation strategy. There is no national consensus on how to address hazard mitigation
as part of FEMA’s overall preparedness for catastrophic disasters. This is reflected in the
fact that hazard mitigation was not included as a component of the initial Target
Capabilities List (TCL), although FEMA states that the targeted capabilities define all-
hazards preparedness and provide the basis to assess preparedness and improve decisions
related to preparedness investments and strategies. 31

Challenge: Improve local hazard mitigation planning process

The Disaster Mitigation Act of 2000 (P.L. 106-390) amended the Stafford Act to
establish specific requirements for state and local hazard mitigation plans. Today, most
states, major counties, and cities have active mitigation plans in place.

The challenge going forward, however, is to improve the quality and impact of this
mitigation planning enterprise, and, ultimately, to reduce disaster losses and expenditures


31
     Target Capabilities List, page 5, http://www.fema.gov/pdf/government/training/tcl.pdf.
                                                                                               15
                     Major Management Challenges Facing the Department of Homeland Security
              EMERGENCY MANAGEMENT SCORECARD
beyond what they would have otherwise been.

State and local hazard mitigation officials continue to report large gaps in the capacity
and will of communities to plan and implement mitigation strategies. This is important
because while FEMA provides grant funds and administrative support to the state, it is
the local hazard mitigation professionals and stakeholders who develop and implement
mitigation projects. When communities lack capacity to mitigate hazards, FEMA’s
ability to ensure an effective national approach to hazard mitigation is diminished.

To improve local hazard mitigation planning, FEMA should enhance community
outreach and awareness, engage stakeholders in preparing and reviewing state and local
hazard mitigation plans, simplify and standardize benefit cost processes, and enhance
state and local risk assessment and analysis capabilities.

Challenge: Improve hazard mitigation outcomes

FEMA faces multiple challenges in its efforts to improve hazard mitigation outcomes.
The most important challenge lies in the scope and complexity of the mitigation
landscape—thousands of entities and individuals must work together in a loosely
coordinated effort to achieve nationally significant results. Mitigation stakeholders
include floodplain managers, risk managers, insurers, property developers, homeowners,
government officials, environmentalists, and the public at large bring conflicting
priorities and interests to any discussion of mitigation. Further, FEMA is limited by
statute to the promotion of effective mitigation practices and lacks the authority to
compel property owners to mitigate floods or other hazards. This is true even when
hazard mitigation appears desperately needed, as in the case of repetitively flooded
properties.

To improve hazard mitigation outcomes, FEMA should look for opportunities to reduce
the complexity and scope of mitigation planning guidance to the extent possible to
remain consistent with legislative intent while meeting the requirements of state and local
mitigation. FEMA should ensure monitoring and follow-up of mitigation actions in state
and local plans, integrate hazard mitigation into Emergency Support Function activities
and preliminary damage assessments, and assess ongoing mitigation programs for gaps
and opportunities for improvement.


GRANTS MANAGEMENT
FEMA assists communities in responding to and recovering from disasters. FEMA provides
disaster assistance to communities through the Public Assistance Grant Program, the Hazard
Mitigation Grant Program, and the Fire Management Assistance Grant Program. Under each
of these grant programs, the affected State is the grantee, and the State disburses funds to

                                                                                              16
                Major Management Challenges Facing the Department of Homeland Security
eligible subgrantees. FEMA also awards grants to state and local governments; territories;
tribal governments; and private, public, profit, and nonprofit organizations to enhance
preparedness, protection, response, recovery, and mitigation capabilities throughout the
Nation. However, improvements are needed in FEMA’s grants management and oversight
infrastructure to ensure effective monitoring of grantees.

The Post Katrina Emergency Management Reform Act (PKEMRA) of 2006 centralized most
of DHS’ grant programs under FEMA’s Grant Programs Directorate (GPD). GPD
administers 52 distinct disaster and non-disaster grant programs and each year awards
between 6,000 and 7,000 individual grants, totaling $7 billion to $10 billion each year. GPD
is currently reviewing its basic functions with respect to four key principles: (1) to administer
FEMA’s grant programs responsibly and economically, (2) to build and sustain the internal
capabilities to ensure success, (3) to show how each grant dollar improves the nation’s
capabilities and provides a strong return on investment, and (4) to carry out its mission within
a new and evolving FEMA structure. Given the billions of dollars appropriated annually for
preparedness, disaster, and non-disaster grant programs, GPD needs to ensure that internal
controls are in place and adhered to, and that grant recipients are sufficiently monitored to
achieve successful outcomes. GPD should continue refining its risk-based approach to
awarding and monitoring preparedness grants to ensure that the most vulnerable areas and
assets are as secure as possible. Sound risk management principles and methodologies will
help GPD prepare for, respond to, recover from, and mitigate acts of terrorism and natural
disasters.

Grants Management

The following scorecard highlights the department’s progress in two key areas: disaster and
non-disaster grants management. FEMA is taking steps to improve its grant policies,
procedures, systems, and processes which when developed and implemented should
strengthen its grants management and oversight infrastructure.

Based on the consolidated result of the two areas presented here, FEMA has made “modest”
progress in the area of Grants Management.




                                                                                              17
                Major Management Challenges Facing the Department of Homeland Security
                  GRANTS MANAGEMENT SCORECARD
                                                                Moderate Progress

Disaster Grants Management

In FY 2009, we issued 51 financial assistance (subgrant) audit reports, identifying more
than $138 million in questioned costs and over $15 million in funds that could be put to
better use. As of August 9, 2010, we had issued 39 subgrant audit reports in FY 2010,
with nearly $80 million in questioned costs and nearly $37 million in funding that could
be deobligated or collected and be put to better use.

While FEMA does not directly manage subgrants, it is incumbent on FEMA to make
certain that States, as grantees, understand the rules and regulations that govern disaster
grants and ensure that subgrantees adhere to these. We plan to issue a report in FY 2011
that recaps the reports we issued in FY 2010 and presents some of the most common
problems that lead to questioned costs, including inconsistent interpretation of policies by
FEMA personnel, grantee and subgrantee non-compliance with the federal regulations
governing disaster grants and federal policy on grants management in general, and the
lack of grantee monitoring of subgrantee activities.


                                                                Modest Progress

Non - Disaster Grants Management

FEMA faces challenges in mitigating redundancy and duplication among preparedness
grant programs. The preparedness grant application process risks being ineffective
because FEMA does not compare and coordinate grant applications across preparedness
programs. Barriers at the legislative, departmental, and state levels impede FEMA’s
ability to coordinate these programs. Since grant programs may have overlapping goals
or activities, FEMA risks funding potentially duplicative or redundant projects. We made
recommendations designed to improve the efficacy of these grant programs which FEMA
agreed with and outlined plans and actions to implement the recommendations.

Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of 2007
required the Office of Inspector General to audit individual states’ management of State
Homeland Security Program and Urban Areas Security Initiatives grants and annually
submit to Congress a report summarizing the results of these audits. In the three
complete years since the law was enacted, the states we audited generally did an efficient
and effective job of administering the grant management program requirements,
distributing grant funds, and ensuring that all the available funds were used.

However, during FY 2010, we issued audit reports in which states, as grantees, were not

                                                                                               18
                Major Management Challenges Facing the Department of Homeland Security
                 GRANTS MANAGEMENT SCORECARD
sufficiently monitoring subgrantee compliance with grant terms and could not clearly
document critical improvements in preparedness as a result of grant awards. Issued audit
reports on homeland security grants management included Maryland, Missouri, South
Carolina, and West Virginia. These entities generally did an efficient and effective job of
administering the grant funds; however, in addition to problems with performance
measurement and subgrantee monitoring, other areas that needed improvement included
financial documentation and reporting, compliance with procurement and inventory
requirements, and identification of long-term capability sustainment options. We also
issued seven draft reports in FY 2010 that will be finalized in early FY 2011.



FINANCIAL MANAGEMENT
DHS continued to improve financial management in FY 2010, but challenges remain. In FY
2010 our Independent auditor performed an integrated financial statement and internal
control over financial reporting audit that was limited to the DHS consolidated balance sheet
and statement of custodial activity. As in previous years, our Independent auditor was unable
to provide an opinion on those statements because the department could not provide
sufficient evidence to support its financial statements or represent that financial statement
balances were correct. Additionally, the Independent auditor were unable to perform
procedures necessary to express an opinion on DHS’ internal controls over financial
reporting of the balance sheet and statement of custodial activity due to the pervasiveness of
the department’s material weaknesses.

Although the department continued to remediate material weaknesses and reduced the
number of conditions contributing to the disclaimer of opinion on the financial statements, all
six material weakness conditions from FY 2009 were repeated in FY 2010. Furthermore, the
Independent auditor identified four department-wide control environment weaknesses that
have a pervasive impact on the effectiveness of internal controls over consolidated financial
reporting, challenges two through four are repeated from FY 2009. Specifically:

   •	 Development and implementation of effective information and communication
       processes to help ensure that technical accounting issues are identified, analyzed, and
       resolved in a timely manner. For example, development of an accounting position
       and/or responses to our questions at Customs and Boarder Protection (CBP), FEMA,
       and Transportation Security Administration (TSA) at various times throughout the
       audit is often a time-consuming process that spans several months, even for less
       complex matters;

   •	 Generally, the components continue to be dependent on the external financial 

       statement audit to discover and resolve technical accounting issues; 


                                                                                              19
               Major Management Challenges Facing the Department of Homeland Security
   •	 Field and operational personnel do not always share responsibilities for, or are not
       held accountable for, financial management matters that affect the financial
       statements, including adhering to accounting policies and procedures and performing
       key internal control functions in support of financial reporting; and

   •	 The department’s financial Information Technology system infrastructure is aging and
       has limited functionality, which is hindering the department’s ability to implement
       efficient corrective actions and produce reliable financial statements that can be
       audited. Weaknesses in the general control environment are interfering with more
       extensive use of IT application controls to improve efficiencies in operations and
       reliability of financial information.
The Independent auditor noted that the DHS civilian components continued to make some
progress in the remediation of IT findings that were reported in FY 2009. The Independent
auditor noted that the department closed approximately 30 percent of prior year IT findings.
In FY 2010 the Independent auditor issued approximately 140 findings, of which more than
60 percent are repeated from last year. Further, nearly one-third of our repeat findings were
for IT deficiencies that management represented were corrected during FY 2010.
Disagreement with management’s self-assessment occurred almost entirely at FEMA.

In FY 2010, TSA corrected the IT controls and systems functionality weakness condition,
while weakness conditions remained unchanged at FEMA, ICE, CBP, USCIS, and Federal
Law Enforcement Training Center (FLETC). The weakness conditions at FEMA and ICE
are more severe than the conditions at CBP, USCIS, and FLETC.

The remaining significant component-level challenges preventing the department from
obtaining an opinion on its consolidated balance sheet and statement of custodial activity are
primarily at the Coast Guard. In FY 2010, the Coast Guard made progress with
implementing aspects of its Financial Strategy for Transformation and Audit Readiness
(FSTAR) in the areas necessary to assert to the completeness, existence, and accuracy of
Property, Plant, & Equipment (PP&E), actuarial liabilities, and fund balance with Treasury.
In addition to its planned FSTAR initiatives for FY 2010, the Coast Guard performed
remediation efforts over discrete elements of its balance sheet. This "balance sheet strategy"
was designed to achieve additional account balance assertions. As a result, the Coast Guard
was able to assert to more than $43 billion of its balance sheet. FSTAR calls for continued
remediation of control deficiencies and reconciliation of balances in FY 2011.

Anti-Deficiency Act Violation:

As of September 30, 2010, the department reported 9 instances of potential Anti-Deficiency
Act (ADA) violations that are in various stages of review. Based on reviews completed in
FY 2009 and FY 2010, the department has requested that the OIG perform numerous ADA
audits. Currently, the OIG is conducting audits on the following cases of potential ADA
violations:



                                                                                             20
               Major Management Challenges Facing the Department of Homeland Security
     1.	 National Protection and Programs Directorate’s (NPPD) Shared Services process in
         FY 2006.
     2.	 Coast Guard’s FY 03 – FY 07 Shore Facility Operating Expenses.
     3.	 United States Secret Service (USSS) salaries and expenses for presidential candidate
         nominee protection.
     4.	 Coast Guard’s FY 04, FY 05, and FY 07 Acquisition, Construction, and 

         Improvement Appropriation. 


The OIG concurred with management’s assessment 32 that FLETC’s reclassification of the
second dormitory as a capital lease caused the required obligation for this lease to exceed
FLETC’s appropriation authority, resulting in an ADA violation.

We noted that the DHS OCFO has established policy and standards for the administrative
control of funds (DHS Financial Management Policy Manual, Section 2.5, Updated February
2010).

Financial Management Scorecard

The following scorecard presents the status of DHS’ effort to address internal control
weaknesses in financial reporting that were identified in FY 2009. The scorecard is divided
into two categories: (1) Military – Coast Guard, and (2) Civilian – all other DHS
components. The scorecard lists the six material weaknesses identified during the
independent audit of the FY 2009 DHS consolidated balance sheet and statement of custodial
activity. These weaknesses continued to exist throughout FY 2010 and were again noted in
the FY 2010 Independent Auditors’ report; however Civilian Components reduced the
severity of several material weakness conditions. For a complete description of the internal
control weaknesses identified in the FY 2009 audit, see OIG-10-11. 33 To determine the
status, we compared the material weaknesses reported by the Independent auditor in FY 2009
with those identified in FY 2010. 34 The scorecard does not include other financial reporting
control deficiencies identified in FY 2010 that do not rise to the level of a material weakness,
as defined by the American Institute of Certified Public Accountants.

Based on the consolidated result of the six financial management areas included in the report,
DHS has made modest progress overall in financial management.




32
   DHS-OIG, FLETC Leases for Dormitories 1 and 3, (OIG-10-02, October 2009).

33
   DHS-OIG, Independent Auditor’s Report on DHS' FY 2009 Financial Statements and Internal Control over 

Financial Reporting, (OIG-10-11, November 2009). 

34
   DHS-OIG, Independent Auditor’s Report on DHS' FY 2010 Financial Statements and Internal Control Over 

Financial Reporting, (OIG-11-09, November 2010). 

                                                                                                      21
                 Major Management Challenges Facing the Department of Homeland Security
                 FINANCIAL MANAGEMENT SCORECARD

Financial Management and Reporting: Financial reporting is the process of
presenting financial data about an agency’s financial position, the agency’s operating
performance, and its flow of funds for an accounting period. Financial management is the
planning, directing, monitoring, organizing, and controlling of financial resources,
including program analysis and evaluation, budget formulation, execution, accounting,
reporting, internal controls, financial systems, grant oversight, bank cards, travel policy,
appropriation-related Congressional issues and reporting, working capital funds, and other
related functions.


      Military               Limited Progress

                  In previous years, the independent auditors noted that the Coast Guard
                  had several internal control deficiencies that led to a material weakness
                  in financial reporting. To address the material weakness conditions, the
                  Coast Guard developed its Financial Strategy for Transformation and
                  Audit Readiness, which is a comprehensive plan to identify and correct
                  conditions that are causing control deficiencies. Significant control
                  deficiencies contributing to a material weakness in financial reporting in
                  FY 2009 included: 1) lack of sufficient financial management personnel
                  to identify and address control weaknesses; and 2) lack of effective
                  policies, procedures, and controls surrounding the financial reporting
                  process.

                  The Coast Guard has demonstrated limited progress in remediating the
                  numerous internal control weaknesses identified by the Independent
                  auditor during FY 2009. In FY 2010, the Coast Guard completed its
                  planned corrective actions over certain internal control deficiencies,
                  which allowed management to make assertions on the completeness and
                  accuracy of certain account balances. However, many of the corrective
                  actions outlined in the FSTAR are scheduled to occur after FY 2010, and
                  consequently many of the financial reporting weaknesses reported in
                  prior years remained as of the fiscal year end.

                  A number of the Coast Guard’s challenges in financial reporting are due
                  to the lack of an effective general ledger system. The Coast Guard
                  currently uses multiple systems that do not comply with the requirements
                  of the Federal Financial management Improvement Act. Additionally,
                  the organization lacks effective policies, procedures, and internal
                  controls to ensure that data supporting financial statements is complete
                  and accurate, and technical accounting issues are identified, analyzed,
                  and resolved in a timely manner.

                                                                                               22
                Major Management Challenges Facing the Department of Homeland Security
                 FINANCIAL MANAGEMENT SCORECARD

      Civilian              Moderate Progress

                  In FY 2009, the Independent auditor identified department-wide control
                  weaknesses that have a pervasive effect on the effectiveness of internal
                  controls over consolidated financial reporting. The Independent auditor
                  also found financial reporting internal control deficiencies for FEMA,
                  TSA, and CBP. The deficiencies at FEMA and TSA were more
                  significant than deficiencies at CBP. Taken together, these deficiencies
                  contributed to a departmental material weakness.

                  During FY 2010, the department made moderate progress overall in
                  addressing the department-wide control weaknesses over consolidated
                  financial reporting. The Independent auditor noted that during FY 2010,
                  TSA demonstrated some progress by hiring accounting personnel and
                  completing reconciliation of its balance sheet accounts. Additionally,
                  TSA addressed matters that have led to misstatements in the financial
                  statements in previous years. In addition, CBP and FEMA took positive
                  steps in FY 2010 to correct control deficiencies that were reported in
                  prior years. Because of the remediation efforts at CBP, TSA and FEMA,
                  the Independent auditor downgraded the severity of the control
                  deficiencies. As a result, TSA no longer contributes to the qualifications
                  on the Independent Auditors’ report. These combined internal control
                  deficiencies contributed to the department’s financial management and
                  reporting material weakness in FY 2010.


Information Technology Controls and Financial Systems Functionality:
IT general and application controls are essential for achieving effective and reliable
reporting of financial and performance data.

      Military               Limited Progress

                  During 2009, the Independent auditor identified 20 IT general control
                  deficiencies, 11 of which were repeat findings from the prior year. The
                  most significant IT deficiencies that could affect the reliability of the
                  financial statements related to the development, implementation, and
                  tracking of IT scripts, and the design and implementation of
                  configuration management policies and procedures. These deficiencies
                  at the Coast Guard contributed to the FY 2009 departmental material
                  weakness over IT controls and financial systems functionality.

                  The Coast Guard has demonstrated limited progress in FY 2010 by
                  remediating eight general control weaknesses identified in previous
                                                                                              23
                Major Management Challenges Facing the Department of Homeland Security
           FINANCIAL MANAGEMENT SCORECARD
           years. Specifically, the Coast Guard demonstrated improvement in its
           user recertification process, data center physical security, and scanning
           for system vulnerabilities. These remediation efforts enabled the
           Independent auditor to expand testwork into areas that were previously
           not practical to audit due to the pervasiveness of IT general control
           weaknesses.

           As a result of the expanded IT testing in FY 2010, the auditors have
           identified new weaknesses. Of the 28 IT control deficiencies the auditors
           identified during FY 2010, 10 are repeat findings from the prior year and
           18 are new findings.

           One key area that remains a challenge for the Coast Guard is its core
           financial system configuration management process. For 2010, the
           auditors again noted that the configuration management process is not
           operating effectively, and continues to present risks to DHS financial
           data confidentiality, integrity, and availability. The auditors reported that
           financial data in the general ledger may be compromised by automated
           and manual changes that are not properly controlled. The changes are
           implemented through the use of an IT scripting process, which was
           instituted as a solution to address functionality and data quality issues.
           However, the controls over the script process were not properly designed
           or implemented effectively from the beginning. The auditors noted that
           while the Coast Guard implemented a new script change management
           tool during the second half of FY 2010, other deficiencies in the IT script
           control environment existed throughout the fiscal year.

Civilian             Limited Progress

           During FY 2009, the Independent auditor identified three areas that
           continued to present risks to the confidentially, integrity, and availability
           of DHS’ financial data: 1) excessive access to key DHS financial
           applications, 2) application change control processes that are
           inappropriate, not fully defined or followed, and are ineffective, and 3)
           security management practices that do not fully and effectively ensure
           that financial systems are certified, accredited, and authorized for
           operation prior to implementation. During FY 2009, FEMA and ICE
           contributed to an overall material weakness in IT general and
           applications control, while CBP, FLETC, TSA, and USCIS all had
           significant deficiencies in this area.

           For FY 2010, DHS has made limited progress overall in correcting the IT
           general and applications control weaknesses identified in the FY 2009
                                                                                           24
       Major Management Challenges Facing the Department of Homeland Security
                FINANCIAL MANAGEMENT SCORECARD
                 Independent Auditor’s report. The Independent auditor identified that
                 TSA eliminated its significant deficiency. However, FEMA, ICE, CBP,
                 FLETC, and USCIS continued to contribute to the departmental IT
                 controls and system functionality material weakness condition. Control
                 deficiencies at FEMA and ICE were more severe than deficiencies at
                 CBP, FLETC, and USCIS.

                 Additionally, FEMA may not have a complete understanding of its
                 control deficiencies because FEMA reported that it closed 28 information
                 controls and system functionality weakness conditions but the
                 Independent auditor concurred with management’s conclusion on only 5
                 of the conditions reported as closed.

                 The auditors noted that many of the financial systems in use at DHS
                 components have been inherited from the legacy agencies and have not
                 been substantially updated since DHS’ inception. As a result, ongoing
                 financial system functionality limitations are contributing to the
                 department’s challenges in addressing systemic internal control
                 weaknesses and strengthening the overall control environment.

                 The FY 2010 Independent Auditor’s report identified the following
                 weaknesses in the IT control areas that increase the risks to the
                 confidentiality, integrity, and availability of DHS’ financial data: 1)
                 Access Controls, 2) Configuration Management, 3) Security
                 Management, 4) Contingency Planning, and 5) Segregation of Duties.
                 Additionally, the Independent auditor noted that in some cases financial
                 system functionality is inhibiting DHS’ ability to implement and
                 maintain or install internal controls, and that financial system
                 functionality limitations contribute to the department’s other material
                 weaknesses.
Fund Balance with Treasury (FBWT): FBWT represents accounts held at the
Treasury from which an agency can make disbursements to pay for its operations. Regular
reconciliation of an agency’s FBWT records with Treasury is essential to monitoring and
safeguarding these funds, improving the integrity of various U.S. Government financial
reports, and providing a more accurate measurement of budget resources.


     Military                Modest Progress

                 In FY 2009, the Independent auditor identified several internal control
                 weaknesses related to FBWT which contributed a material weakness in
                 this area at the Coast Guard. Among the internal weakness conditions

                                                                                            25
               Major Management Challenges Facing the Department of Homeland Security
                 FINANCIAL MANAGEMENT SCORECARD
                  the auditors noted in FY 2009 was that the Coast Guard had not
                  developed a comprehensive process, to include effective internal
                  controls, to ensure that FBWT transactions are recorded in the general
                  ledger timely, completely, and accurately.

                  As of the end of FY 2010, the Coast Guard’s FBWT represented
                  approximately 11 percent of the department’s total FBWT. Overall, the
                  Coast Guard has demonstrated modest progress in addressing the
                  material weaknesses noted during FY 2010. Although the Coast Guard
                  corrected some FBWT control deficiencies, additional corrective actions
                  are planned for FY 2011. Consequently, most of the FY 2009 weakness
                  conditions were reported again in FY 2010.

                  One of the key factors contributing to the FBWT material weakness is
                  that the Coast Guard has not designed and implemented accounting
                  processes, including a financial system that complies with federal
                  financial systems requirements, as defined in the OMB Circular No. A-
                  127, Financial Management Systems, to support the FY 2010 FBWT
                  activity and balance.

      Civilian                      N/A

                  No control deficiencies related to FBWT were identified at the civilian
                  components in FY 2010. Corrective actions implemented in previous
                  years continued to be effective throughout FY 2009 and FY 2010.
Property, Plant, and Equipment: DHS capital assets and supplies consist of items
such as property, plant, and equipment, operating materials; and supplies, including boats
and vessels at the Coast Guard, passenger and baggage screening equipment at TSA, and
stockpiles of inventory to be used for disaster relief at FEMA.


      Military              Limited Progress

                  The Coast Guard maintains approximately 51 percent of the department’s
                  PP&E, including a large fleet of boats and vessels. The Coast Guard also
                  maintains significant quantities of operating materials and supplies
                  (OM&S), which consist of tangible personal property to be consumed in
                  normal operation of service marine equipment, aircraft, and other
                  equipment.

                  In FY 2009, internal control weaknesses related to PP&E and OM&S at
                  the Coast Guard contributed to the departmental material weaknesses.

                                                                                             26
               Major Management Challenges Facing the Department of Homeland Security
           FINANCIAL MANAGEMENT SCORECARD
           For FY 2010, the Coast Guard has demonstrated limited progress overall
           in correcting internal control weaknesses related to PP&E identified in
           the Independent Auditor’s report in FY 2009. In addition to its planned
           FSTAR initiatives for FY 2010, the Coast Guard performed additional
           remediation efforts over discrete elements of its balance sheet. This
           "balance sheet strategy" was designed to achieve additional account
           balance assertions. As a result, the Coast Guard implemented additional
           measures to resolve the OM&S portion of the material weakness ahead
           of the planned FSTAR remediation milestone. However, the Coast
           Guard was unable to accomplish all aspects of its planned remediation
           efforts. Moreover, most of the corrective actions included in the FSTAR
           are scheduled to occur over a number of years. Consequently, many of
           the material weakness conditions noted during FY 2010 also existed in
           FY 2009. For example, one of the conditions the auditors identified,
           which is a repeat deficiency from prior years, is that the Coast Guard has
           not established its beginning PP&E balance necessary to prepare the
           fiscal year-end balance sheet. The Coast Guard conducted inventory
           procedures during FY 2010 to assist management in substantiating the
           existence and completeness of PP&E balances; however, those
           procedures were not performed over all asset classes (e.g real property).

           The Independent auditor also noted that the Coast Guard has had
           difficulty establishing its opening PP&E balances primarily because of
           poorly designed policies, procedures, and processes implemented more
           than a decade ago, combined with ineffective internal controls. PP&E
           was not properly tracked or accounted for many years preceding the
           Coast Guard’s transfer to DHS in 2003, and now the Coast Guard is
           faced with the formidable challenge of performing a retroactive analysis
           in order to properly establish the existence, completeness, and accuracy
           of PP&E. Furthermore, the fixed asset module of the Coast Guard’s
           CAS is not updated timely for effective tracking and reporting of PP&E
           on an ongoing basis. As a result, the Coast Guard is unable to accurately
           account for its PP&E, and provide necessary information to DHS OFM
           for consolidated financial statement purposes.


Civilian            Moderate Progress

           During FY 2009, CBP and TSA contributed to an overall material
           weakness in PP&E, while ICE, NPPD, TSA, and USCIS all had
           significant deficiencies in this area.

           During FY 2010, DHS demonstrated moderate progress overall in

                                                                                       27
       Major Management Challenges Facing the Department of Homeland Security
                 FINANCIAL MANAGEMENT SCORECARD
                  correcting internal control weaknesses related to PP&E identified in the
                  Independent Auditor’s report in FY 2009. ICE, NPPD, and USCIS have
                  fully corrected internal control weakness conditions related to PP&E,
                  while CBP reduced the severity of its control deficiencies. Additionally,
                  TSA completed the reconciliation of its PP&E accounts in FY 2010 and
                  was able to assert that its PP&E balances at September 30, 2010 are
                  fairly stated in the DHS FY 2010 Annual Financial Report. Although
                  TSA made some progress in remediating control deficiencies, including
                  having auditable beginning PP&E balance, it was unable to fully address
                  all of the conditions that existed in FY 2009. Consequently, the overall
                  severity of its internal control weakness conditions remained in FY 2010.


Actuarial and Other Liabilities: Liabilities represent the probable and measurable
future outflow or other sacrifice of resources as a result of past transactions or events. The
internal control weaknesses reported in this area are related to various types of liabilities,
including accounts and grants payable, legal and actuarial, and environmental liabilities.


      Military              Moderate Progress

                  The Coast Guard maintains medical, pension, and post-employment
                  travel benefit programs that require actuarial computations to record
                  related liabilities for financial reporting purposes. Other liabilities
                  include accounts payable, environmental, and legal liabilities.

                  In FY 2009, the Independent auditor noted a number of internal control
                  deficiencies related to actuarial liabilities at the Coast Guard, which
                  contributed to a material weakness for the department.

                  During FY 2010, the Coast Guard demonstrated moderate progress
                  overall by completing its planned corrective actions over selected
                  internal control and reporting deficiencies that existed in this process in
                  FY 2009. Specifically, remediation efforts associated with accounts
                  payable, accrued payroll, pension, and medical liabilities allowed
                  management to assert to the completeness and accuracy of over $43
                  billion of accrued liabilities, which represents more than 50 percent of
                  DHS’ total liabilities. However, management was unable to provide
                  sufficient evidential matter that support transactions and balances related
                  to environmental and other liabilities. Among the conditions that
                  remained throughout FY 2010 is the Coast Guard has not implemented
                  effective policies, procedures, and controls to ensure the completeness
                  and accuracy of environmental liabilities.

                                                                                                 28
                Major Management Challenges Facing the Department of Homeland Security
                 FINANCIAL MANAGEMENT SCORECARD

      Civilian            Substantial Progress

                 For FY 2009, the Independent auditor noted internal control weaknesses
                 related to liabilities at FEMA and TSA.

                 During FY 2010, the civilian components demonstrated substantial
                 progress overall in remediating internal control weaknesses related to
                 actuarial and other liabilities, with TSA fully remediating its control
                 weakness condition. FEMA is recognized as the primary grant-making
                 component of DHS and the FY 2010 Independent Auditor’s report noted
                 that FEMA does not have sufficient policies and procedures in place to
                 fully comply with the Single Audit Act Amendments of 1996 and OMB
                 Circular No. A-133, Audits of States, Local Governments, and Non-profit
                 Organizations. As a result, FEMA continued in FY 2010 to contribute to
                 the departmental actuarial and other liabilities material weakness
                 condition.
Budgetary Accounting: Budgetary accounts are a category of general ledger
accounts where transactions related to the receipt, obligation, and disbursement of
appropriations and other authorities to obligate and spend agency resources are recorded.


      Military              Limited Progress

                 The Coast Guard has over 90 Treasury Account Fund Symbol (TAFS)
                 covering a broad spectrum of budget authority, including annual, multi-
                 year, and no-year appropriations; and several revolving, special, and trust
                 funds. Each TAFS with separate budgetary accounts must be maintained
                 in accordance with OMB and Treasury guidance.

                 In FY 2009, the Independent auditor noted a number of internal control
                 deficiencies related to budgetary accounts that contributed to a material
                 weakness in this area for the department.

                 For FY 2010, the Coast Guard has made limited progress in remediating
                 the internal control weaknesses in this area. Many of the conditions that
                 contributed to a material weakness in budgetary accounting at the Coast
                 Guard in FY 2009 remained throughout FY 2010. For example, the FY
                 2009 Independent Auditors’ report noted that the policies, procedures,
                 and internal controls over the Coast Guard’s process for validation and
                 verification of some account balances are not effective to ensure
                 recorded amounts are complete, valid, accurate, and proper approvals
                 and supporting documentation are maintained. These weaknesses
                                                                                             29
               Major Management Challenges Facing the Department of Homeland Security
                      FINANCIAL MANAGEMENT SCORECARD
                        continued to exist in FY 2010, and remediation of these conditions is not
                        planned until after FY 2010.


          Civilian                 Moderate Progress

                        For FY 2009, internal control weaknesses at CBP and FEMA contributed
                        to a departmental budgetary accounting material weakness.

                        During FY 2010, the department demonstrated moderate progress in
                        correcting the budgetary accounting material weakness. FEMA
                        improved its processes and internal controls over the obligation and
                        monitoring process, but control deficiencies remain. Additionally, CBP
                        implemented policies and procedures requiring the timely review and
                        deobligation of funds when contracts have expired or are complete.
                        However, CBP did not adhere to those policies and procedures. As a
                        result, FEMA and CBP contributed to the departmental budgetary
                        accounting material weakness condition.



INFRASTRUCTURE PROTECTION
DHS has direct responsibility for leading, integrating, and coordinating efforts to protect 11
critical infrastructure and key resources (CI/KR) sectors: the chemical industry; commercial
facilities; critical manufacturing; dams; emergency services; commercial nuclear reactors,
materials, and waste; information technology; telecommunications; postal and shipping;
transportation systems; and government facilities. In addition, DHS has an oversight role in
coordinating the protection of seven sectors for which other federal agencies have primary
responsibility. The seven sectors for which DHS has an oversight role are agriculture and
food; the defense industrial base; energy; public health and healthcare; national monuments
and icons; banking and finance; and water and water treatment systems. The requirement to
rely on federal partners and the private sector to deter threats, mitigate vulnerabilities, or
minimize incident consequences complicates protection efforts for all CI/KR. Combined
with the uncertainty of the terrorist threat and other manmade or natural disasters, the
implementation of protection efforts is a great challenge.

In our FY 2009 report, Efforts to Identify Critical Infrastructure Assets and Systems, we
reported that the National Protection and Programs Directorate is in the process of acquiring
the Infrastructure Information Collection System, a replacement for the National Asset
Database. 35 It is envisioned that the Infrastructure Information Collection System will
greatly reduce critical infrastructure risk management gaps by providing dynamic

35
     DHS-OIG, Efforts to Identify Critical Infrastructure Assets and Systems, (OIG-09-86, June 2009).
                                                                                                        30
                     Major Management Challenges Facing the Department of Homeland Security
information collection systems that include a range of relevant sources. In addition, the
Infrastructure Information Collection System will allow relevant critical infrastructure
partners from federal, state, local, and private entities to access various tools that house
infrastructure data. We recently closed this recommendation because NPPD has made
progress and the unclassified system is now in use. However, the classified system has not
been implemented.

Concerning DHS efforts to protect the cyber infrastructure, we reported in June 2010 that the
United States Computer Emergency Readiness Team (US-CERT) had made progress in
implementing a cybersecurity program to assist federal agencies in protecting their
information technology systems against threats. 36 However, US-CERT does not have
appropriate enforcement authority to ensure that agencies comply with its mitigation
guidance concerning threats and vulnerabilities. Additionally, US-CERT does not have
sufficient staff to perform its 24x7 operations and to analyze security information timely.
US-CERT had not developed a strategic plan and must improve its information sharing
efforts with federal agencies. Finally, US-CERT does not have the capability to monitor
federal cyberspace in real-time.


BORDER SECURITY
Securing the nation's borders from illegal entry of aliens and contraband, including terrorists
and weapons of mass destruction, continues to be a major challenge. DHS apprehends
hundreds of thousands of people and seizes large volumes of cargo entering the country
illegally each year. The U.S. Customs and Border the DHS component responsible for
securing the nation's borders at and between the ports of entry. To achieve this goal, CBP is
implementing the Secure Border Initiative (SBI), a comprehensive multi-year approach
intended to help secure the 7,000 miles of international borders that the United States shares
with Canada and Mexico. The program, which began in November 2005, seeks to enhance
border security and reduce illegal immigration through the use of surveillance technologies,
increase staffing levels, increase domestic enforcement of immigration laws, and improve
physical infrastructure along the nation's borders.

The technology component of SBI, referred to as SBInet, is a major acquisition program
initiated to gain operational control of the borders by designing and deploying a new
integrated system of technology, infrastructure, and personnel. The specific objective of
SBInet is to provide Border Patrol command centers with the imagery and intelligence to
detect, identify, and interdict illegal incursions at and between our land ports of entry. DHS’
ability to monitor SBInet has been a continuing concern. Previously, we reported that DHS
did not have the acquisition workforce required to adequately plan, oversee, and execute
SBInet, and that CBP had not established adequate controls and effective oversight of



36
 DHS OIG, U.S. Computer Emergency Readiness Team Makes Progress in Securing Cyberspace, but
Challenges Remain (OIG-10-94, June 2010).
                                                                                               31
                Major Management Challenges Facing the Department of Homeland Security
contract workers responsible for providing SBI program support services. 37 Also, the
Government Accountability Office identified significant risk of the SBInet program not
meeting mission needs and the increased risk of unnecessary program costs resulting from
time consuming system rework. 38 Because of these and other concerns related to the
efficacy of the implementation of SBInet technologies, the Secretary, in January 2010,
requested a department-wide reassessment of the program that will identify alternatives to the
current SBInet strategy that may more efficiently and effectively meet border security needs.
The Secretary subsequently froze all SBInet funding beyond the initial deployment to the
Tucson and Ajo regions until the reassessment is complete.

In June 2010, we reported that CBP needed to improve its control of contractor activities on
the SBI technology program. Specifically, program officials did not ensure that contractors
maintained up-to-date information in the primary management tool designed to provide
managers with advance information regarding potential cost overruns and program progress.
In addition, program officials did not ensure that a program event was properly completed
before progressing to the next event, and did not adequately document their review and
acceptance of accomplishments and criteria at program events. CBP has a low number of
government personnel assigned to oversee contractor activities, which increases the program
office’s risk that program cost and schedule are not adequately managed and that goals are
not met. CBP has taken steps to improve SBI technology program oversight by using the
Defense Contracting Management Agency personnel to assist with contract administration
and reissuing important program documentation. 39

CBP faces challenges in meeting small business subcontracting goals for the remainder of the
Secure Border Initiative Net indefinite delivery, indefinite quantity contract. A change in
CBP’s acquisition strategy from acquiring technology to acquiring steel for border fence
construction reduced opportunities for small business to participate in awards under the
Secure Border Initiative Net contract. In response the prime contractor, Boeing, has
implemented initiatives to improve small business participation in Secure Border Initiative
Net subcontracts to achieve its subcontracting goals. Despite these initiatives, the contractor
has not achieved the established goals for small business participation since the reporting
period ended September 2007. 40

Additionally, we previously reported that DHS needs to focus on improving the policies,
processes, and procedures that govern the management and care of its detainee population.
Prior reviews of ICE’s detention and removal operations identified deficiencies in the
oversight of immigration detention facilities. ICE has made efforts to strengthen the
oversight of ICE detention assets by establishing a Detention Facilities Inspection Group
(DFIG). The DFIG provides ICE with an independent inspection arm dedicated to oversight
37
   DHS OIG, Better Oversight Needed of Support Services Contractors in Secure Border Initiative Programs, 

OIG-09-80, June 2009. 

38
   Government Accountability Office, Secure Border Initiative: DHS Needs to Reconsider Its Proposed

Investment in Key Technology Program, GAO-10-340, May 2010

39
   DHS OIG, Controls Over SBInet Program Cost and Schedule Could Be Improved, (OIG-10-96, June 2010). 

40
   DHS OIG, CBP Faces Challenges in Achieving Its Goals for Small Business Participation in Secure Border 

Initiative Network, (OIG-10-54, February 2010). 

                                                                                                        32
                  Major Management Challenges Facing the Department of Homeland Security
of ICE’s Detention and Removal Operations (DRO) program. ICE has contracted with
private companies to provide on-site compliance verification of the Performance-Based
National Detention Standards at all ICE detention facilities. Last year we reported that ICE
could further improve documenting the transfer of immigrant detainees and ensuring they
received timely medical screenings and physical examinations, required by detention
standards. 41 Additionally, ICE needed to determine whether its approach to detention facility
bed space management was cost-effective. 42 ICE has been responsive to the issues identified
in the two reports and is implementing the recommendations to address these issues.


TRANSPORTATION SECURITY
The nation’s transportation system is vast and complex. It consists of about 3.9 million miles
of roads, over 100,000 miles of rail, almost 600,000 bridges, over 300 sea ports, over 2
million miles of pipeline, about 500 train stations, and over 5,000 public-use airports. The
size of the transportation system, which moves millions of passengers and tons of freight
every day, makes it both an attractive target for terrorists and difficult to secure. The nation’s
economy depends upon implementation of effective, yet efficient transportation security
measures. The Transportation Security Administration is responsible for protecting the
transportation system and ensuring the freedom of movement for people and commerce.
Given the “open” environment, TSA must establish effective security strategies, while
maintaining quick and easy access for passengers and cargo. Since its inception, TSA
continues to face challenges with strengthening security for aviation, mass transit and other
modes of transportation. Although TSA is making progress in addressing these challenges,
more needs to be done.

Checkpoint and Checked Baggage

TSA’s screening of persons and property continues to be a vital element of the overall
aviation security system. The Aviation and Transportation Security Act 43 requires TSA to
prescribe requirements for screening or inspecting all passengers, goods, and property before
entry into the sterile areas of an airport. Our undercover audit of checked baggage screener
performance revealed that improvements are needed in the screening process to ensure that
dangerous prohibited items that enter the checked baggage system are not cleared for loading
onto a passenger aircraft. 44 We recently issued a classified report on our unannounced,
covert testing which identified needed improvements for TSA’s newly deployed and
enhanced screening checkpoint technologies. 45 We evaluated Advanced Imaging

41
   DHS-OIG, Immigration and Customs Enforcement's Tracking and Transfers of Detainees, (OIG-09-41, 

March 2009). 

42
   DHS-OIG, Immigration and Customs Enforcement Detention Bedspace Management, (OIG-09-52, April 

2009). 

43
   Public Law 107-71, November 19, 2001. 

44
   DHS-OIG, Audit of the Effectiveness of the Checked Baggage Screening System and Procedures Used to 

Identify and Resolve Threats, (OIG-09-42, March 2009). 

45
   DHS-OIG, Evaluation of Newly Deployed and Enhanced Technology and Practices at the Passenger 

Screening Checkpoint (OIG-10-75, March 2010). 

                                                                                                          33
                 Major Management Challenges Facing the Department of Homeland Security
Technology, Advanced Technology X-ray equipment, and Liquid Container Screening used
to screen passengers or their carry-on items and tested Transportation Security Officer
performance in checking passengers' travel documents.

Passenger Air Cargo Security

Approximately 7.6 million pounds of cargo are transported on passenger planes each day.
Federal regulations (49 CFR) require that, with limited exceptions, passenger aircraft may
only transport cargo originating from a shipper that is verifiably “known” either to the
aircraft operator or to the indirect air carrier that has tendered the cargo to the aircraft
operator.

TSA could improve its efforts to secure air cargo during ground handling and transportation.
We reviewed the effectiveness of the TSA’s efforts to secure air cargo while it is handled or
transported on the ground, prior to being shipped on passenger aircraft. 46 We determined
that personnel were sometimes accessing, handling, or transporting air cargo without the
required background checks or training. The agency’s inspection process has not been
effective in ensuring that requirements for securing air cargo during ground transportation are
understood or followed. The inspection process has focused on quantity rather than
outcomes and ensuring corrective actions. We reported that automated tools to assist
inspectors in analyzing results and focusing their oversight efforts on high-risk areas in air
cargo security could be improved.

Although TSA has taken steps to address air cargo security vulnerabilities, our undercover
audit demonstrated that the agency does not have assurance that cargo screening methods
always detect and prevent explosives from being shipped in air cargo transported on
passenger aircraft. 47 We presented test cargo shipments to air carriers and certified cargo
screening facilities, and the screeners or equipment did not always identify the test items.

Rail and Mass Transit

Passenger rail systems face a dynamic landscape of potential natural disasters, accidents, and
terrorist attacks. Since 1995, there have been more than 250 terrorist attacks worldwide
against rail targets, resulting in nearly 900 deaths and more than 6,000 injuries. Recent
events on the rail and transit systems in Washington DC, including a derailment, fire, and
crash, have raised questions regarding the mass transit agencies’ contingency plans and the
ability to handle these basic issues, as well as major emergencies. The Aviation and
Transportation Security Act assigned TSA the responsibility to secure all modes of
transportation in the United States.




46
  DHS-OIG, Security of Air Cargo During Ground Transportation, (OIG-10-09, November 2009).
47
  DHS-OIG, Evaluation of Screening of Air Cargo Transported on Passenger Aircraft, (OIG-10-119,
September 2010).
                                                                                                  34
                 Major Management Challenges Facing the Department of Homeland Security
We evaluated the TSA’s effectiveness in supporting mass transit and passenger rail agencies
in preparing for and responding to emergency incidents. 48 As TSA expands its presence in
non-aviation modes of transportation, it must look critically at how it is deploying resources.
TSA could better support passenger rail agencies by improving its assessments of emergency
preparedness and response capabilities. The agency could also improve its efforts to train
passenger rail agencies and first responders, and ensure that drills and exercises are live and
more realistic to help strengthen response capabilities. The agency has focused primarily on
security and terrorism prevention efforts, while providing limited staff and resources to
emergency preparedness and response.


TRADE OPERATIONS AND SECURITY

CBP is responsible for guarding nearly 7,000 miles of land border the United States shares
with Canada and Mexico and 2,000 miles of coastal waters surrounding the Florida peninsula
and off the coast of Southern California. The agency also protects 95,000 miles of maritime
border in partnership with the United States Coast Guard. CBP assesses all people and cargo
entering the U.S. from abroad for terrorist risk. Each year, more than 11 million maritime
containers arrive at our seaports. At land borders, another 11 million arrive by truck and 2.7
million by rail. On a typical day CBP processes more than 50,000 truck, rail, and sea
containers, along with the personnel associated with moving this cargo across U.S. borders or
to U.S. seaports. To manage the potential security threats presented by this large volume of
maritime cargo, CBP has implemented a layered approach to prevent cargo linked to
terrorism from entering the country.

CBP uses several programs and initiatives including establishing voluntary cooperation and
initiatives with government, industry and working with law enforcement and our foreign and
domestic trade partners to improve international supply chain security. Among the programs
and initiatives are the:

     -   Customs-Trade Partnership Against Terrorism (C-TPAT), a voluntary government-
         business initiative designed to improve international supply chain security by
         providing incentives to businesses that meet certain security standards.

     -   Container Security Initiative (CSI), an international program in which CBP officers
         are deployed at overseas ports to work with host nations to target containers that pose
         a high-risk. Currently, there are 58 CSI ports handling approximately 86% of all U.S.
         bound cargo.

     -   Secure Freight Initiative (SFI) a pilot program at foreign ports for testing the

         feasibility of scanning 100% of U.S. cargo.


48
  DHS-OIG, TSA's Preparedness for Mass Transit and Passenger Rail Emergencies, (OIG-10-68, March
2010).

                                                                                                   35
                 Major Management Challenges Facing the Department of Homeland Security
     -   Importer Security Filing – CBP requires importers and carriers to submit additional
         cargo data on vessels destined to the U.S ports to help decision-makers and systems
         make more informed decisions on cargo.

     -   Automated Targeting System - CBP employs targeting and law enforcement tools and
         sophisticated targeting techniques to analyze and screen shipping information to
         identify the highest risk cargo on which to focus its limited resources.

While CBP continues to enhance its layered strategy, significant issues remain with
modernizing trade systems, using resources efficiently, and managing and forging
partnerships with foreign trade and customs organizations, and improving the effective use of
its targeting systems.

For example, the targeting and examination of high risk shipments continues to be a
challenge for CBP. Our most recent review highlighted several areas where improvement can
be made. These areas include updating CBP’s guidance relating to the physical examinations
of high-risk cargo containers that may contain biological, chemical, nuclear, and radiological
threats and the need for a risk assessment to determine which pathways, pose the highest
risk. 49
As part of our review of CBP’s layered approach, we evaluated the CSI program and noted
that while the CSI program has proactive management and oversight processes in place, CSI
could improve the future direction of the program by updating its performance measures and
integrating its plans with other international maritime cargo security programs. 50

The challenge of developing and maintaining an integrated approach to cargo security is
critical as CBP’s moves forward to implement Section 1701 of the Implementing
Recommendations of the 9/11 Commission Act of 2007, which requires DHS to screen all
cargo headed for the United States that is loaded on or after July 1, 2012. Before 100%
screening can be fully implemented for all cargo inbound to the U.S., DHS must ensure that
it has adequate resources, infrastructure and processes in place and can reach agreement with
the international community to resolve issues concerning corresponding resources, oversight,
costs, timing, and enforcement considerations as well as a process to resolve disagreements
as they arise.




49
   DHS-OIG, CBP’s Ability to Detect Biological and Chemical Threats in Maritime Cargo Containers, (OIG-
10-01, October 2009). DHS-OIG, Cargo Targeting and Examinations, (OIG-10-34, January 2010).
50
   DHS-OIG, CBP’s Container Security Initiative Has Proactive Management and Oversight but Future
Direction is Uncertain, (OIG-10-52, February 2010).

                                                                                                      36
                 Major Management Challenges Facing the Department of Homeland Security
Appendix A
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Legislative Affairs
                      Under Secretary Management
                      Chief Financial Officer
                      Chief Information Officer
                      Chief Security Officer
                      Chief Privacy Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                                                                       37
              Major Management Challenges Facing the Department of Homeland Security
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
